HHS/OIG, Audit - "Review of Severance and Termination Costs Claimed by
CareFirst Blue Cross/Blue Shield of Maryland for the Period October 2005 Through
December 2006," (A-03-07-00022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Severance and
Termination Costs Claimed by CareFirst Blue Cross/Blue Shield of Maryland for
the Period October 2005 Through December 2006," (A-03-07-00022)
January 9, 2008
Complete
Text of Report is available in PDF format (352 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether CareFirst Blue
Cross/Blue Shield of Maryland's (CareFirst) claims
for severance and termination costs were allowable, reasonable, and allocable,
in accordance with the Federal Acquisition Regulation, the
Medicare contract provisions, and CareFirst severance policies.  CareFirst
claimed $1,394,977 in severance and termination costs for the period October
2005 through December 2006.  We did not question $1,362,526 of this amount.
However, CareFirst claimed $32,451 in unallowable costs.  In its comments
on our draft report, CareFirst concurred with all but one of our findings.
CareFirst provided additional documentation (letter, invoice, and schedule of
hours/wages) from AON Consulting to support the professional fees totaling
$12,024 for services claimed for November 2005.
Although CareFirst provided additional information about
the work performed, it did not document the details of the agreements.
Therefore, we continue to support our recommendation.